\

Wf;,A

Case: 20-40458

Document: 00515779007

Page: 1

Date Filed: 03/12/2021

UrnteiJ States Court of Appeals
for tfje jfiftfj Ctrtutt
No. 20-40458

A True Copy
Certified order issued Mar 12, 2021

dwQ W. CtMjU
United States of America,

Clerk, U.S. Court of Appeals, Fifth Circuit

Plaintiff—Appellee,

i

versus
Nathaniel Howard Thomas,

\

Defendant—Appellant.

Appeal from the United States District Court
for the Eastern District of Texas
USDC No. 4:98-CR-14-27

CLERK’S OFFICE:
Under 5th Cir. R. 42.3, the appeal is dismissed as of March 12,
2021, for want of prosecution. The appellant failed to timely file his sufficient
brief.

Case: 20-40458

Document: 00515779007

Page: 2

Date Filed: 03/12/2021

No. 20-40458

LYLE W. CAYCE
Clerk of the United States Court
of Appeals for the Fifth Circuit

jf.o
By:
Rebecca L. Leto, Deputy Clerk
ENTERED AT THE DIRECTION OF THE COURT

2

•s

<v

United States Court ofAppeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLEW.CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

January 28, 2021
#07052-078
Mr. Nathaniel Howard Thomas
1404 Parker Road, E.
'
Plano, TX 75074
No. 20-40458

USA v. Nathaniel Thomas
USDC No. 4:98-CR-14-27

Dear Mr. Thomas,
On January 21, 2021, this Court denied the motion to file your
brief in present form and returned the deadline for filing your
brief to February 1, 2021. Previously, General Order 2020-7
would extend incarcerated pro se deadlines in 30-day increments
upon the expiration of the current deadline. However, General
Order 2021-3 entered on January 22, 2021, rescinds the previous
order.
In light of entry of General Order 2021-3, we are updating your
appellant's brief deadline to February'12, 2021. However, we
will no longer automatically extend your deadline. You must
resolve your current deadline or seek additional time by motion.
Failure to comply by the expiration of your deadline will result
in the dismissal of your appeal pursuant to 5TH ClR. R. 42.3.
Sincerely,
LYLE W. CAYCE, Clerk
By:
Rebecca LiLeto,Deputy Clerk
504-310-7703
cc:

Ms. Terri Lynn Hagan
Mrs. Jan Mason
Ms. Heather Harris Rattan
Mr. Bradley Elliot Visosky
Ms. Ruth Weese

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

January 21, 2021
MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW:
No. 20-40458

USA v. Nathaniel Thomas
USDC No. 4:98-CR-14-27

The court has taken the following action in this case: appellant's
motion to file brief in present form is denied. Appellant's brief
remains due on or before February 1, 2021 and must follow the
requirements and format set forth in Fed. R. App. P. 28 AND 32.

Sincerely,
LYLE W. CAYCE, Clerk

By:
Rebecca L.Leto, Deputy Clerk
504-310-7703
Ms.
Mr.
Ms.
Mr.
Mr.

Terri Lynn Hagan
David O'Toole
Heather Harris Rattan
Nathaniel Howard Thomas
Bradley Elliot Visosky

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

January 20, 2021
#07052-078
Mr. Nathaniel Howard Thomas
1404 Parker Road, E.
Plano, TX 75074
No. 20-40458

USA v. Nathaniel Thomas
USDC No. 4:98-CR-14-27

Dear Mr. Thomas,
Your motion cannot be handwritten, pursuant to Fed. R. APP. P. 32.
You must submit a sufficient motion within 10 days from the date
of this letter.
Once typed, the motion must also contain a certificate of
compliance, pursuant to Fed. R. App. P. 32(g)(1) and 27(d)(2)(A).
Sincerely,
LYLE W. CAYCE, Clerk

By:
Jann M.Wynne,Deputy Clerk
504-310-7688
cc:

Ms. Terri Lynn Hagan
Ms. Heather Harris Rattan
Mr. Bradley Elliot Visosky

*,
4

i

®mtet> States; Court of appeals!
for tfjc Jftfff) Circuit
ORDER
General Docket No. 2021-3
s

General Order 2020-7 instructed the clerk’s office to extend deadlines
for incarcerated pro se filers in 30-day increments because procedures put in
place to respond to COVID-19 by the Federal Bureau of Prisons, Louisiana
Department of Public Safety & Corrections, Mississippi Department of
Corrections, and the Texas Department of Criminal Justice prevented or
delayed the ability of incarcerated filers to meet filing deadlines. Conditions
in these facilities no longer require a blanket extension of deadlines.
Accordingly, the court hereby rescinds the provision of General Order 20207 that directed the clerk to extend deadlines in 30-day increments. The clerk
will advise incarcerated pro se filers previously granted extensions of this
action and establish future deadlines in accordance with Federal Rules of
Appellate Procedure or Fifth Circuit Local Rules.
All previous changes ordered in General Docket Nos. 2020-3, 20204,2020-5,2020-6 remain in effect.
Dated this

day of January 2021.

Priscilla R. Owen
ChiefJudge, United States Court ofAppeals
for the Fifth Circuit

Case 4:98-cr-00014-SDJ-KPJ Document 1421 Filed 07/09/20 Page 1 of 2 PagelD #: 1899

United States District Court
EASTERN DISTRICT OF TEXAS
SHERMAN DIVISION

UNITED STATES OF AMERICA

§
§
§
§
§

v.
NATHANIEL HOWARD THOMAS

Criminal Action No. 4:98-CR-14
(Judge Jordan)

MEMORANDUM ADOPTING REPORT AND
RECOMMENDATION OF UNITED STATES MAGISTRATE JUDGE
Came on for consideration the above-referenced criminal action, the Court having
heretofore referred the request for the revocation of Defendant’s supervised release to the United
States Magistrate Judge for proper consideration.

The Court has received the Report and

Recommendation of the United States Magistrate Judge pursuant to its order. Defendant having
waived allocution before the Court as well as his right to object to the report of the Magistrate
Judge, the Court is of the opinion that the findings and conclusions of the Magistrate Judge are
correct.
It is therefore ORDERED that the Report and Recommendation of United States
Magistrate Judge is ADOPTED as the opinion of the Court.
It is further ORDERED that Defendant’s supervised release is hereby REVOKED.
It is further ORDERED that Defendant be committed to the custody of the Bureau of
Prisons for a term of twelve (12) months of imprisonment, with no term of supervised release to
follow.

1

Case 4:98-cr-00014-SDJ-KPJ Document 1421 Filed 07/09/20 Page 2 of 2 Page ID #: 1900

The Court also recommends that Defendant be housed in a Bureau of Prisons facility in
Fort Worth, if appropriate.
So ORDERED and SIGNED this 9th day of July, 2020.

SEAN D. JORDAN
UNITED STATES DISTRICT JUDGE

2

Case 4:98-cr-00014-SDJ-KPJ Document 1420 Filed 07/07/20 Page 1 of 4 Page ID #: 1895

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
SHERMAN DIVISION
UNITED STATES OF AMERICA,
Plaintiff,
v.
NATHANIEL HOWARD THOMAS,
Defendant.

§
§
§
§
§
§
§
§

CRIMINAL ACTION NO. 4:98-CR-14

REPORT AND RECOMMENDATION
OF UNITED STATES MAGISTRATE JUDGE
Now before the Court is the request for revocation of Defendant’s supervised release. After
the District Judge referred the matter to this Court for a report and recommendation, the Court
conducted a hearing on June 12, 2020, to determine whether Defendant violated his supervised
release. Defendant was represented by Brian O’Shea. The Government was represented by Marisa
Miller.
Nathaniel Howard Thomas was sentenced on October 16,1998, before The Honorable Paul
Brown of the Eastern District of Texas after being found guilty of the offenses of Conspiracy to
Possess Controlled Substances with the Intent to Distribute and Conspiracy to Distribute
Controlled Substances, a Class A felony; Possession with Intent to Distribute Cocaine Base and
Distribution of Cocaine Base, a Class C felony; and Distribution of a Controlled Substance within
1,000 Feet of a Playground, a Class B felony. These offenses carried a statutory maximum
imprisonment term of not less than 10 years imprisonment or more than Life; not more than 20
years imprisonment; and not less than 1 year or more than 40 years imprisonment, respectively.
The guideline imprisonment range, based on a total offense level of 35 and a criminal history
category of IV, was 235 to 293 months. Nathaniel Howard Thomas was subsequently sentenced
REPORT AND RECOMMENDATION - Page 1

Case 4:98-cr-00014-SDJ-KPJ Document 1420 Filed 07/07/20 Page 2 of 4 PagelD #: 1896

to 235 months followed by a 5, 3, and 6 year term of supervised release, respectively, subject to
the standard conditions of release, plus special conditions to include financial disclosure, drug
testing and treatment, and a $500 special assessment. The defendant's motion for a sentence
reduction was granted on August 15, 2008, and his sentence was reduced to 188 months. On
November 7, 2011, Nathaniel Howard Thomas completed his period of imprisonment and began
service of the supervision term. On July 3, 2013, the defendant's term of supervision was revoked,
and he was sentenced to 12 months imprisonment followed by a 60-month term of supervised
release. The defendant commenced the term of supervision June 17, 2015. On February 10, 2020,
this case was reassigned to The Honorable Sean D. Jordan, U.S. District Judge for the Eastern
District of Texas.
On September 17, 2015, the U.S. Probation Officer executed a Petition for Warrant or
Summons for Offender Under Supervision [Dkt. 1380, Sealed].

The Petition asserted that

Defendant violated three (3) conditions of supervision, as follows: (1) the defendant shall not
commit another federal, state, or local crime; (2) the defendant shall reside in a residential reentry
center or similar facility, in a prerelease component for a period of 180 days to commence
immediately, and shall observe the rules of that facility. Should the defendant obtain a residence
approved by the probation officer during the 180 day placement, the defendant shall be released;
(3) the defendant shall answer truthfully all inquiries by the probation officer and follow the
instructions of the probation officer.
The Petition alleges that Defendant committed the following acts: (1) On September 4,
2015, the defendant was unsuccessfully discharged from Volunteers of America Residential
Reentry Center, Hutchins, Texas, for failing to be present at the approved address in which he
submitted for leave. As a result of the discharge from placement, the defendant ceased to be a

REPORT AND RECOMMENDATION - Page 2

Case 4:98-cr-00014-SDJ-KPJ . Document 1420 Filed 07/07/20 Page 3 of 4 PagelD #: 1897

resident of Hutchins, Texas this date; however, the defendant failed to notify Hutchins Police
Department Sex Offender Registration Unit of this change of address. To date, the defendant has
not informed law enforcement, via the Department of Public Safety-State of Texas Sex Offender
Registry, of a current address. As such, the defendant is committing a state crime; (2) On
September 4, 2015, the defendant was unsuccessfully discharged from Volunteers of America
Residential Reentry Center, Hutchins, Texas, due to a rule infraction. The defendant failed to
reside in a residential reentry center and observe the rules of that facility; (3) On September 8,
2015, th[e probation] officer instructed the defendant to apply for residency and remain at The
Bridge Homeless Shelter, Dallas, Texas, until a stable residence could be verified and obtained.
The defendant failed to successfully apply and become a resident of The Bridge Homeless Shelter
as instructed by the probation officer.
Prior to the Government putting on its case, Defendant entered a plea of true to allegation 2
of the Petition. The Government dismissed allegations 1 and 3. Having considered the Petition
and the plea of true to allegation 2, the Court finds that Defendant did violate his conditions of
supervised release.
Defendant waived his right to allocute before the District Judge and his right to object to
the report and recommendation of this Court.
RECOMMENDATION
Pursuant to the Sentencing Reform Act of 1984, the Court recommends that Defendant’s
supervised release be revoked and that he be committed to the custody of the Bureau of Prisons to
be imprisoned for a term of twelve (12) months of imprisonment, with no term of supervised
release to follow.

REPORT AND RECOMMENDATION - Page 3

Case 4:98-cr-00014-SDJ-KPJ Document 1420 Filed 07/07/20 Page 4 of 4 Page ID #: 1898

The Court also recommends that Defendant be housed in a Bureau of Prisons facility in
/

Fort Worth, if appropriate.

SIGNED this 7th day of July, 2020.

Christine A. Nowak
UNITED STATES MAGISTRATE JUDGE

REPORT AND RECOMMENDATION - Page 4

